No.

IN THE

Supreme Ohmrt af the Jlniteb JBtates
Robert Ibarra

Petitioner,
v.
W. L. Montgomery, Acting Warden,

Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Mark R. Drozdowski, a Deputy Federal Public Defender in the Office
of the Federal Public Defender, which was appointed as counsel for Petitioner
under the Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), and who is a member

of the Bar of this Court, hereby certifies that, pursuant to Supreme Court

Rule 29.3, on April 6, 2021, a copy of the enclosed Motion for Leave to
Proceed in Forma Pauperis, Petition for a Writ of Certiorari, Appendix to

1

Petition for Writ of Certiorari, and Certificate Pursuant to Rule 33 was
mailed postage prepaid and electronically mailed to:

Counsel for Respondent
Xiomara Costello
Deputy Attorney General
Office of the California Attorney General
300 South Spring Street, Suite 1702
Los Angeles, CA 90013
DocketingLAAWT@doj .ca.gov
Xiomara.Costello@doj.ca.gov
All parties required to be served have been served. I declare under
penalty of perjury under the laws of the United States of America that the

foregoing is true and correct.
Executed on April 6, 2021 at Los Angeles, California.

MARK R. DRO^DOWSKI*

Deputy Federal Public Defender
Attorneys for Petitioner
* Counsel of Record

2

